         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Follow-up Review of Control and
Accountability of Emergency
Communication Network Equipment




INS-L-12-01                     December 2011
                                 Department of Energy
                                    Washington, DC 20585

                                       December 21, 2011



MEMORANDUM FOR THE ASSOCIATE ADMINISTRATOR FOR EMERGENCY OPERATIONS


FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Follow-up Review of Control
                         and Accountability of Emergency Communication Network
                         Equipment"

BACKGROUND

The Department of Energy's (Department) Emergency Communications Network (ECN) mission
is to enable the exchange of classified and unclassified voice, data and video capabilities during
national or Department emergencies. ECN connects approximately 80 remote Department sites
and mobile units across the nation using various forms of electronic communication capabilities
– audio and video teleconferencing, e-mail, faxes and intranet. The National Nuclear Security
Administration's (NNSA) Office of Emergency Operations manages the ECN program for the
Department. NNSA has contracted with National Security Technologies, LLC (NSTec) for the
administration, maintenance and operation of the ECN network at NNSA's Nevada Site Office
(Nevada). NSTec is responsible for managing the ECN property, about 1,100 pieces, including
computers, laptops, servers and switches.

In September 2004, the Office of Inspector General issued a report entitled, "Control and
Accountability of Emergency Communication Network Equipment," (DOE/IG-0663). We
concluded that the Department had not established effective oversight of its property inventory
system. Departmental management concurred with our recommendations and stated that they
took corrective actions to address the accountability issues identified in our report.

CONCLUSIONS AND OBSERVATIONS

Our inspection revealed that Department officials have taken positive steps in response to our
2004 report to improve ECN equipment control and accountability. Specifically, Department
and NSTec officials:

    • Consolidated ECN equipment inventories for Headquarters and Nevada into a centralized
      property management system;
      • Developed procedures to improve its process for increased property accountability;

      • Developed procedures to reassign property from terminating or transferring employees;

      • Modified NSTec procedures to strengthen the process to conduct required annual ECN
        property inventories; and,

      • Improved Departmental guidance for the ECN equipment loan process.

Our observations are based on testing of various inventory procedures, direct confirmation that
sampled property was properly accounted for and a review of new or updated policies and
procedures (see attachment).

While we identified minor issues, some of which were immediately corrected, we generally
confirmed that the Department had addressed our previous findings and was adequately
accounting for ECN property.

We appreciate the cooperation received from your staff during our inspection. Given that
Department officials have addressed the prior inspection report findings, and that steps and
procedures have been instituted to continually improve current operations, we are not making
any recommendations and a response is not required.


Attachment

cc:    Deputy Secretary
       Associate Deputy Secretary
       Administrator, National Nuclear Security Administration
       Chief of Staff




                                                 2
                                                                                   Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

Given the Department of Energy's (Department) past property accountability concerns, and the
importance of the Emergency Communication Network's (ECN) mission, we initiated this
inspection to determine if Nevada has improved its process for control and accountability of
property assigned to the ECN program.

SCOPE AND METHODOLOGY

This inspection was performed from July through September 2011 at the Nevada Operations Site
and Headquarters, Washington, D.C. This was a follow-up performance inspection to our
previous report on "Control and Accountability of Emergency Communication Network
Equipment," issued (DOE/IG-0663), September 24, 2004. To accomplish the inspection
objective, we:

   •   Reviewed and analyzed the prior Office of Inspector General (OIG) issued Emergency
       Communications Network Property report, and related work papers;

   •   Reviewed and analyzed recommendations and corrective actions in the Departmental
       Audit Reporting and Tracking System associated with the previous Inspection;

   •   Reviewed and analyzed applicable Contractor directives, Department of Energy
       regulations, and other guidance related to property management;

   •   Reviewed prior reports issued by the OIG and the Government Accountability Office;

   •   Interviewed Contractor and Federal officials at both locations to gather information
       regarding ECN control and accountability measures and procedures for property
       management;

   •   Tested a judgmental sample of 35 percent (380 of 1,085 pieces of equipment) of current
       ECN inventory to assess accountability of property by the contractor;

   •   Tested a judgmental sample of 22 percent (45 of 204 pieces of equipment) of transferred
       property; and,

   •   Tested a judgmental sample of 42 percent (25 of 60 pieces of equipment) of reassigned
       property.

We conducted this performance inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation. The
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our


                                               3
                                                                        Attachment 1 (continued)


conclusions and observations based on our inspection. The inspection included tests of controls
to comply with laws and regulations to the extent able to satisfy the inspection objectives.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our inspection. Also, we assessed Nevada's
compliance with Government Performance and Results Act of 1993 and found that performance
measures had been established relating to property management. Specifically, we reviewed
National Security Technologies, LLC (NSTec) Fiscal Year (FY) 2010 Annual Report of Physical
Inventory and Write-off Request, which is reviewed and approved by a Department official.
During our review of the document, we noted that NSTec had achieved a property inventory
accountability rate, based on total acquisition dollars, of 99.99 percent for sensitive assets and
99.96 percent for equipment during the FY 2010 Inventories. Finally, we relied on computer
processed data to some extent to satisfy our objective related to property management. We
confirmed the validity of such data, when appropriate, by reviewing source documents and
performing physical observations.

Management waived the Exit Conference.




                                                4
                                                                     IG Report No. INS-L-12-01


                                  CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name __________________________________ Date ________________________

Telephone ______________________________ Organization __________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia M. Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
